                                     U.S. SMALL BUSINESS ADMINISTRATION



~
     BU8
 ~          .,.                         OFFICE OF INSPECTOR GENERAL
                                             Washington, DC 20416
•               •
'''''~o.::'"
,.      p.<\"



                                                                              AUDIT REPORT
                                                                              ISSUE DATE:
                                                                              JULY 26, 2000
                                                                              NUMBER: 0-22

      TO:           Judith Russell, District Director
                     Illinois District Office
                      "'      -~,



                     ~;t'l.f\f,/J ,~-;~
      FROM:         Robert G. Seabrooks, Assistant Inspector General
                     for Auditing

      SUBJECT:       Audit of an Early Defaulted Loan to ,[    ti!)I .   <+
               Attached is a copy of the subject report. The report contains one finding and two
      recommendations addressed to your office. In your memorandum, dated July 13, 2000, you
      stated that you agreed with the recommendations and that corrective action is planned for the
      first recommenation and has already been addressed for the second recommendation.

             The finding included in this report is the conclusion of the Office of Inspector General
      Auditing Division based upon the auditors testing of the auditee's operations. The finding and
      recommendations are subject to review and implementation of corrective action by your office in
      accordance with existing Agency procedures for audit follow-up and resolution.

              Please provide your management response to the recommendations within 30 days from
      the date of this report on the attached SBA Form 1824, Recommendation Action Sheet. The
      SBA From 1824 should be mailed to

                     Audit Manager
                     SBA OIGIAltanta Field Office, Suite 1803
                     233 Peachtree Street, NE.
                     Atlanta, Georgia, 30303

       Should you or your staff have any questions, please contact Garry Duncan at 202-205-7732.

       Attachment
                                                       AUDIT OF 

                                                 EARLY DEFAULTED LOAN 

                                                          TO 

                                             t




                                                    TABLE OF CONTENTS 





Background .................................................................................................................................. 1

Audit Scope and Objective .......................................................................................................... 1

Results of Audit ........................................................................................................................... 1

Finding and Recommendations

           Loan Closing Procedures were not Prudent.. ................................................................... 1

Appendices

            A- Management's Comments

            B- Auditee's Comments

            C- Audit Report Distribution
                                     BACKGROUND

       The Small Business Administration (SBA) is authorized under section 7(a) of the
Small Business Act to provide financial assistance to small businesses in the form of
government guaranteed loans. SBA guaranteed loans are made by participating lenders
under an agreement (SBA Form 750) to originate, service, and liquidate loans in
accordance with Small Business Administration rules and regulations.

                On ( E;/\ -4 1 The Money Store Investment Corporation (lender)
 approved a $269,000 loan to r:         (;}I. 4         "](borrower) for the purchase ofland
 and a building in t ;;)(-4::3 Illinois. L       0:)(. "+        '1 was started in 1989 to
[                  eX . 4                                    J The loan closed in August
 1996, defaulted in . ( € t· 4 :J. and was placed in liquidation in August 1997 with a
 principal balance of$271,188. The loan was charged off in February 2000 with a
 balance of$217,692.83.

                               AUDIT SCOPE AND OBJECTIVE

       This report provides the results of our review of the SBA guaranteed loan. The 

loan was judgmentally selected for review as part of the Office ofInspector General's 

ongoing program to audit SBA loans charged off or transferred to liquidation within 36 

months of origination (early default). 


       The audit objective was to determine if the early loan default was caused by 

lender or borrower noncompliance with SBA's requirements. SBA and lender loan files 

were reviewed and district office and lender personnel were interviewed. Fieldwork was 

accomplished from July 1999 through November 1999. The audit was conducted in 

accordance with Government Auditing Standards. 


                                  RESULTS OF AUDIT

 FINDING        Loan Closing Procedures were not Prudent

        The audit disclosed that the lender, to assist in the purchase of real estate, 

 inappropriately used funds designated for accrued real estate taxes and imprudently 

 disbursed the balance to the borrower's principals. The principals did not pay the taxes. 

 As a result. when the loan defaulted, SBA's recovery was reduced by the amount of the 

 unpaid taxes plus interest and penalties. 


 Funds were used inappropriately

         The lender had to use funds designated for accrued real estate taxes to close the 

 purchase because the loan amount was not sufficient to cover all costs. The loan amount 

 was less than the cost of the building, and with the addition of the guarantee fee and the 

 settlement costs. the total funds needed to complete the purchase exceeded the borrower's 

 available funds. The calculations are as follows: 




                                               I


                                                                                                I
        Building contract Sales Price                $269,900
        Settlement charges due from borrower            1,596
               Total due from borrower                              $271,496

        Deposit by borrow (equity injection)            7,000
        Loan Amount (less guaranty fee)               262,947
                Total paid by borrower                              $269,947
        Balance due from borrower                                   $ 1,549
        Less Adjustments:
        Taxes accrued from 1196 to 8/96              $ 14,051
        2nd payment for 1995 taxes                     12,672
                Total adjustments                                   $ 26,723
        Net to be paid to borrower                                  $ 25,174

        At settlement, the closing attorney issued two checks totaling $25,173.77 to the
principals of the borrower. By disbursing the tax proceeds to the principals, the lender
had no assurance that the taxes would be paid, Both the lender and we have concluded
that the taxes were not paid.

        After the loan defaulted, the lender found that there were delinquent real estate
taxes totaling about $126,000 and that this amount included the 1995 and 1996 taxes for
which the principals received funds (real estate taxes within the State of Illinois are paid
in two installments I year in arrears), When the building was sold at sheriff sale, it had
an estimated liquidation value of $187,500 before deduction for taxes. After the sale and
the deduction for the taxes, interest, fees, and expenses, the lender and SBA received net
proceeds of$60,743.

        The Loan Guaranty Agreement (SBA Form 750) executed by SBA and the
Lender states, in part, "Lender shall ... and take such other actions which shall,
consistent with prudent closing practices, be required in order fully to protect or preserve
the interest oflender and SBA in the loan," For this loan the lender's actions were not
prudent as the funds designated for taxes were used for non-tax purposes and were
disbursed to the principals in lieu of the borrower.

       The lender stated that as of the date of this loan closing, it had no policy for the
escrow of tax credits. Subsequently, the lender claims to have initiated escrow policy and
procedures for taxes applicable to real estate transactions in the State of Illinois.

Recommendations

        We recommend that the District Director, Illinois District Office, take the
 following actions:

 I.A.    Recover $26,723 from the lender as a repair to loan number t E:~.   *    J



                                               2



                                                                                               I
l.B. 	 Review The Money Store Investment Company's policies and procedures to
       ensure that there is currently a policy and procedure for escrowing borrower real
       estate taxes and it is implemented.

Management Response

The District Director agreed with the recommendations and stated that her office would
take all steps necessary for the recovery of the $26,723 for payment of real estate taxes.
She also stated that her office had been assured that the lender has changed its policy to
ensure that such funds are escrowed and had obtained documentation that the lender has a
written policy in place (see Appendix A).

Evaluation of Management's Response

       The response from the district office director is acceptable.

Auditee's Response

        The auditee stated that it believes the loan amount was adequate to close the
transaction. and that only $1,549 of the tax credit was used to close the loan. The auditee
also stated that the disbursement of the tax credits to the principals in lieu of the borrower
was an oversight by the closing agent, and that it, the lender, was led to believe the funds
were given to the borrower. According to the auditee, the borrower was informed of the
nature of the tax credit and that it was the borrower's responsibility to pay the tax bills,
once they were received. Additionally, the auditee states that it is unaware of any SBA
 requirement at that time to establish a tax escrow (see Appendix B).

 EvaluOltion of Auditee's Response

         The auditee does not disagree with the facts presented in the finding, but does
 disagree with our conclusions that the loan amount was insufficient and that the lender
 actions were not prudent. The lender's comments indicate agreement that a portion of the
 tax credits was necessary to close the loan. This fact shows that the loan amount was
 insufficient. The lender's comments also imply that the disbursement of the tax credits to
 the principals was not a correct action by the closing agent. This supports our conclusion
 that the action was not prudent. This imprudent act resulted in a reduction in SBA's
 recovery during the liquidation process. Therefore, the lender should be held responsible
 and should compensate SBA for the additional loss.




                                               3

                                                                                                       Appendix A




                                     u.s. Small Business Administration
                                     Illinois District Office



Memo
T.      Robert G. Seabrooks
        Assistant Inspector General for
F...... Judith A. Roussel.. District Dira
u....   July 13, 2000

"-      Audit, L    E-)<.4                  J




Please be advised that the Illinois District Office agree with the recommendations of the Inspector
General's Office.

The District Office will immediately proceed with the following course of action:

1. 	 Take all steps necessary for the recovery of the $26,723 for payment of Real Estate taxes.

2. 	 We were aware of this problem with this lender, having adjusted previous purchases and were
     assured that they had changed their policy to ensure that such funds would be esaowed in the
     future. We have now obtained documentation that Iheirwritlen policy is in place. (copy attached)

Should you or your staff have any questions, please contact 1:      G x· Iv         J our Assistant DisIJId
Director for Economic Development at        c.
                                           E}(.- b     J
                  Policy for Escrow of Property Tax Credits
                             Cook County, illinois ­

In Cook County, Illinois, no tax credit funds may be disbursed as cash to the
borrower at the dosing.

Tax credits to borrower for real estate taxes, accrued but not payable on the date of
the closing, are required to be placed in a Tax Credit Holding Account with the tHle
com pany. This account is for the benefit of the borrower to pay the taxes when they
become payable and either borrower or lender shall instruct escrow holder to
disburse funds directly to Cook County Tax Collector. Borrower's or Lender's request
for disbursement shall be accompanied by the appropriate tax bills for the property,

Lender's Instructions to the closing agent shall include an attachment instructing the
clOSing agent in this regard. The attachment is to be executed by the borrower,·
Lender and the escrow holder.




                                                                                         I
    First Union Small Business Capital
    i07 3rd Street
    West Sacramento. California 95605                                             Appendixi
    Tel 916 617-1100 

    Fax 916 617-1090 



July 10, 2000

Robert G. Seabrooks, Assistant Inspector General
U.S.Small Business Administration
Office of Inspector General
409 3rd Street, S.w.
Washington Office Center
Mail Code: 4111
Washington, D.C. 20416

Re: 	   Draft Audit Report
        Early Defaulted Loan to .L       ~)(   .4

Dear Mr. Seabrooks:

This letter is a response to the draft audit report for the loan above
referenced. The matter at issue is related to the tax credit from seller to
borrower for taxes accrued but not yet payable. Your letter states that the
lender had to use funds designated for accrued real estate taxes to close the
purchase because the loan amount was not sufficient to cover all costs.

The loan provided the borrower $262,947.00 towards the purchase price of
$269,900.00. Loan funds were also disbursed to pay the SBA Guaranty Fee.
We required the borrower to inject a total of $6,953.00 toward the purchase of
the building and $3,047.00, which was the amount estimated for "soft costs".
Soft costs generally include such expenses as appraisals, environmental
reports, packaging fee, title insurance, attomey's fees and other similar costs
that are required in connection with the transaction.

Your draft report includes an overview of the closing statement. In review of
that information, it is noted that only $1,549.00 of the tax credit was used to
close the loan. While it is true that the balance of the tax credit was
disbursed to the borrower for payment of the taxes, once they became due,
we maintain that the loan amount was adequate to complete the transaction
and that the borrower would have been required to. bring in the $1,549.00 to
close the transaction, had it not been for the existence of the tax credit.

The disbursement of the tax credit funds to the principals instead of to the
corporate borrower, was an oversight by the closing agent. The settlement
statement received by us for review and approval prior to the close of the
transaction showed funds "to Borrower" in the amount of $25,173.77.
Without viewing the actual checks issued at the closing, we assumed that the
funds would be disbursed to C      '" ",. 4         1 per the borrower name
on the settlement statement

Additionally, we were under advice by our Illinois counsel that purchasers in
real estate transactions in Cook County customarily received the tax credit at
the closing. We were also advised that our counsel always explained to the
borrowers and their attomeys the nature of the tax credit and that it is the
borrower's responsibility to pay the tax bills, once they are received.
Additionally, we are unaware of an SBA requirement,at that time, either in the
SOPs or the Authorization and Loan Agreement, to establish a tax escrow.



L

In summary we believe the loan amount was adequate, in conjunction with
the borrower's injection, to close the transaction. We also believe that, had it
not been for the existence of the tax credit, the borrower would have
deposited $1,549.00 to the escrow to close the transaction. If the taxes had
been payable at the closing, as they are in most jurisdictions, the tax credit
would not have been an issue and no funds would have been disbursed tel
the principals. We believe that the reason for the loan default was unrelated
to the underwriting, processing or closing of this loan.

If you have comments or questions regarding this response, please do not
hesitate to contact me at t. {;)(. i.> '] or write to me at:

First Union Small Business Capital
707 3'" Street, 2nd Floor North, M05243
West Sacramento, CA 95605
Attention: \$'-)(. h              ]


Sincerely,


[                               J
AVP, Loan Compliance


cc:
                                                                                                                          Appendix C
                                                   Audit Report Distribution 



Recipient                                                                                            Number of Copies 



Associate Deputy Administrator for Capital Access ................................................. 1 



Associate Administrator for Field Operations ........................................................... 1 



Associate Administrator for Financial Assistance ..................................................... 1 



Financial Administrative Staff................................................................................... 1 

 Attention: leffBrown 



General Counsel .........................................................................................................2 



General Accounting Office ........................................................................................ 1 

